No.

In The
SUPREME COURT OF THE UNITED STATES

Michael Harrison Lowman, Jr.,
Applicant/Petitioner
v.
United States of America,
Respondent

Application for an Extension of Time Within Which to File a
Petition for a Writ of Certiorari to the United States Court of
Appeals for. the Fourth Circuit

Wesley S. White
State Bar No. 43916
2300 E. 7th St. Suite 101
Charlotte, NC 28204
Telephone: (702) 824-1695
E-mail: wes@weswhitelaw.com
Counsel of Record for Petitioner

RECEIVED
FEB 3- 2020
LERK
FF1cE
OFcoURT
THE U.S.
u
. F.FtEmE

To the Honorable JOHN G. ROBERTS, JR., Chief Justice of the United
States Supreme Court and Circuit Justice for the Fourth Circuit:
Applicant-Petitoner, Michael Harrison Lowman, Jr., respectfully request an
extension of time to file a petition for writ of certiorari. Sup. Ct. R. 13.5. The
deadline for applicant to file his petition is Tuesday, February 4, 2010, which is
ninety days from November 6, 2020, the date when the Appeals Court for the
Fourth Circuit issued its order dismissing Applicant's appeal of his sentence in
District Court. For good cause set forth herein, Applicant asks that this deadline be
extended by thirty (not sixty) days, so that the new deadline would be March 5,
2020.
BACKGROUND
This case arises from the Fourth Circuit's dismissal of Lowman's appeal from
the District Court. On January 3, 2019, the District Court (Western District of
North Carolina) sentenced the Petitioner to 300 months in prison, following his
guilty plea to one count of sexual exploitation of a minor, (production), 18 U.S.C.
ยง2251(a). In forming the sentence, however, the court relied on and accepted
information proffered by the government which lacked reliability and fell short of
the applicable standard of proof. The Petitioner argued on appeal that his sentence
violated his right to due process.
The United States, however, filed a motion to dismiss the appeal, citing the
Petitioner's waiver in his plea agreement. The Petitioner argued that the issue fell
outside the scope of the plea agreement. The Fourth Circuit, however, ruled that

2

"Lowman knowingly and voluntarily waived his right to appeal and that the issue
Lowman seeks to raise on appeal falls squarely within the compass of his waiver of
appellate rights", granted the government's motion, and dismissed the appeal. The
order granting the motion is attached herein as Exhibit A, and the Judgment, filed
November 6, 2020, is attached as Exhibit B.
JURISDICTION
This Court will have jurisdiction over any timely filed petition for certiorari
in this case pursuant to 28 U.S.C. ยง 1254(1). Under Rules 13.1, 13.3, and 30.1 of the
Rules of this Court, a petition for a writ of certiorari was due to be filed on or before
February 4,2020. The application is being filed less than ten days before the time
for filing the petition.
REASONS JUSTIFYING AN EXTENSION OF TIME
Applicant respectfully requests a 30-day extension of time within which to
file a petition for a writ of certiorari seeking review of the decision of the Fourth
Circuit in this case, up to and including March 5, 2020.
1. Undersigned attorney for the applicant is not a member of the Supreme
Court bar, but wishes to, and is going to file an application. He has
secured one sponsoring attorney, but needs an additional sponsor.

3

1

Undersigned attorney also needs to receive a requesting "certificate of
good standing" from North Carolina, which has been requested, but will
not arrive prior to the petition deadline.
Undersigned counsel will be making his first writ of certiorari to this
Honorable Court, and was initially misinformed as to the ninety-day
deadline (that it runs from the date of the judgment and not the
mandate), so that he initially thought the writ was due in March.
Undersigned counsel also erroneously believed the writ could be filed by
him without him being a member of the bar, or without his bar application
pending. He called the clerk and was informed that he cannot.
Much or most of the work on the substance of the writ petition is
completed, but with a thirty-day extension, undersigned counsel, in good
faith, believes he will be able to have his bar application approved, in
order to properly facilitate the filing of the writ.
The extension rule allows up to 60 days, but only 30 days is being
requested, in good faith, and not for any purpose of delay or obstruction.

4

CONCLUSION
For the foregoing reasons, applicant respectfully requests that this Court
grant an extension of 30 days, up to and including March 5, 2020.
Respectfully Submitted,
January 31, 2020
/s/ Wesley S. White
Wesley S. White
State Bar No. 43916
2300 E. 7th St. Suite 101
Charlotte, NC 28204
Telephone: (702) 824-1695
E-mail: wes@weswhitelaw.com

5

